                     U.S. ENVIRONMENTAL PROTECTION AGENCY

                     OFFICE OF INSPECTOR GENERAL




                     EPA Has Not Implemented
                     Adequate Management
                     Procedures to Address
                     Potential Fraudulent
                     Environmental Data
                     Report No. 14-P-0270                   May 29, 2014




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                 Laurie Adams
                                                     Jerri Dorsey
                                                     Jeffrey Harris
                                                     Jee W. Kim
                                                     Calvin Lin
                                                     Denton Stafford
                                                     Patricia Brooks Taylor




Abbreviations

CIO            Chief Information Officer
CLP            Contract Laboratory Program
EPA            U.S. Environmental Protection Agency
OCEFT          Office of Criminal Enforcement, Forensics and Training
OECA           Office of Enforcement and Compliance Assurance
OEI            Office of Environmental Information
OI             Office of Investigations
OIG            Office of Inspector General
OSWER          Office of Solid Waste and Emergency Response


Cover photo: EPA photo of a laboratory.



 Hotline                                        Suggestions for Audits or Evaluations
 To report fraud, waste or abuse, contact us    To make suggestions for audits or evaluations,
 through one of the following methods:          contact us through one of the following methods:

 email:    OIG_Hotline@epa.gov                  email:    OIG_WEBCOMMENTS@epa.gov
 phone:    1-888-546-8740                       phone:    1-202-566-2391
 fax:      1-202-566-2599                       fax:      1-202-566-2599
 online:   http://www.epa.gov/oig/hotline.htm   online:   http://www.epa.gov/oig/contact.html#Full_Info

 write:    EPA Inspector General Hotline        write:    EPA Inspector General
           1200 Pennsylvania Avenue, NW                   1200 Pennsylvania Avenue, NW
           Mailcode 2431T                                 Mailcode 2410T
           Washington, DC 20460                           Washington, DC 20460
                         U.S. Environmental Protection Agency                                                   14-P-0270
                                                                                                              May 29, 2014
                         Office of Inspector General


                         At a Glance
Why We Did This Review                EPA Has Not Implemented Adequate
The purpose of this review was        Management Procedures to Address
to determine the use of
procedures by the
                                      Potential Fraudulent Environmental Data
U.S. Environmental Protection
Agency (EPA), other federal            What We Found
agencies and states to manage
the communication of and              The EPA lacks a due diligence process for        The EPA is not ensuring that
appropriate action on                 potential fraudulent environmental data. The     fraudulent laboratory
laboratory data determined to         agency has three policies and procedures         environmental data is being
be fraudulent. We refer to this       that address how to respond to instances of      communicated to appropriate
as a due diligence process.           fraudulent data, but they are all out of date or program offices and data
                                      unimplemented. Our survey of EPA regional        users, reviewed, and analyzed
                                                                                       for its impact on human health
The EPA relies on external            offices disclosed that a majority of
                                                                                       and the environment.
laboratories to provide               respondents were unaware there was a
environmental testing data and        policy, and approximately 50 percent expressed the need for such policies and
results. Intentionally falsified or   procedures. The EPA plans to issue revised policy by fiscal year 2017. Until then,
fraudulent data can impact the        unimplemented and out-of-date policies and procedures—and lack of EPA staff
public’s trust in the EPA and         awareness of those policies that do exist—create risk that EPA staff will fail to
could have serious implications       properly communicate the information regarding fraudulent data to appropriate
for protecting human health           program offices and data users; review and analyze the data for potential impacts
and the environment from              to human health and the environment; or review and amend, if possible, past
hazardous or toxic substances.        environmental decisions that were based on fraudulent data. According to staff of
                                      the federal agencies and states we contacted in this evaluation, they also do not
The report addresses the              have formal, written due diligence processes.
following EPA goals or
cross-cutting strategies:             Further, the EPA does not consistently notify the states when laboratory due
                                      diligence activities can begin during or following a fraud investigation that affects
  Cleaning up communities            state environmental programs. The agency does not have a policy on
   and advancing sustainable          communicating case information with the states and other regulating parties
   development.                       during investigations, due to the sensitive nature of investigations which could be
  Addressing climate change          jeopardized, and because rights of innocents could be threatened and suspects
   and improving air quality.         could be unfairly maligned in an ongoing fraud investigation. As a result,
  Protecting America’s               laboratory fraud cases may not include a due diligence review. In such cases,
   waters.                            potentially negative impacts to human health and the environment due to
                                      fraudulent lab data could go undetected.

                                       Recommendations and Planned Corrective Actions
For further information,              We recommend that the agency incorporate a process to respond to instances of
contact our public affairs office
                                      fraudulent data into its current policy until the revised policy is issued. We also
at (202) 566-2391.
                                      recommend that the agency state the details of a laboratory fraud due diligence
The full report is at:                process in its new policy. Further, we recommend that the agency develop
www.epa.gov/oig/reports/2014/         guidelines outlining the response when fraudulent laboratory data is discovered
20140529-14-P-0270.pdf                in ongoing criminal investigations. We recommend training on laboratory fraud
                                      due diligence processes and procedures for all relevant staff. The EPA agreed
                                      with our recommendations and we agreed with the EPA’s proposed corrective
                                      actions.
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                    THE INSPECTOR GENERAL




                                              May 29, 2014

MEMORANDUM

SUBJECT:       EPA Has Not Implemented Adequate Management Procedures to Address
               Potential Fraudulent Environmental Data
               Report No. 14-P-0270

FROM:          Arthur A. Elkins Jr.

TO:            Renee P. Wynn, Acting Assistant Administrator and Chief Information Officer
               Office of Environmental Information

               Cynthia Giles, Assistant Administrator
               Office of Enforcement and Compliance Assurance

               Mathy Stanislaus, Assistant Administrator
               Office of Solid Waste and Emergency Response

This is a report on the subject evaluation conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the problems
the OIG has identified and corrective actions the OIG recommends. This report represents the opinion of
the OIG and does not necessarily represent the final EPA position. Final determinations on matters in
this report will be made by EPA managers in accordance with established audit resolution procedures.

The EPA offices having primary responsibility for the issues evaluated in this report are the Office of
Environmental Informations’ Quality Staff office; the Office of Enforcement and Compliance
Assurance’s Office of Criminal Enforcement, Forensics, and Training; and the Office of Solid Waste
and Emergency Response’s Office of Superfund Remediation and Technology Innovation.

Action Required

You are not required to provide a written response to this final report because you provided agreed-to
corrective actions and planned completion dates for the report recommendations. The OIG may make
periodic inquiries on your progress in implementing these corrective actions. Should you choose to
provide a final response, we will post your response on the OIG’s public website, along with our
memorandum commenting on your response. You should provide your response as an Adobe PDF file
that complies with the accessibility requirements of Section 508 of the Rehabilitation Act of 1973, as
amended.

We will post this report to our website at http://www.epa.gov/oig.
If you or your staff have any questions regarding this report, please contact Carolyn Copper,
Assistant Inspector General for Program Evaluation, at (202) 566-0829 or copper.carolyn@epa.gov;
or Jeffrey Harris, Director for Toxics, Chemical Management, and Pollution Prevention Evaluations,
at (202) 566-0831 or harris.jeffrey@epa.gov.
EPA Has Not Implemented Adequate Management                                                                                  14-P-0270
Procedures to Address Potential Fraudulent Environmental Data




                                     Table of Contents
   Purpose......................................................................................................................   1

   Background ...............................................................................................................      1

   Responsible Offices ..................................................................................................          2

   Prior Reports .............................................................................................................     2

   Scope and Methodology ...........................................................................................               3

   Results of Review .....................................................................................................         4

           EPA’s Existing Laboratory Fraud Due Diligence Policies or
                Guidance Are Outdated or Unimplemented ..............................................                              4
           EPA Lacks Policy for Notifying the States When Due Diligence
                Can Begin as a Result of Laboratory Fraud Investigations ........................                                  6

   Conclusions...............................................................................................................      6

   Recommendations ....................................................................................................            7

   Agency Comments and OIG Evaluation ..................................................................                           8

   Status of Recommendations and Potential Monetary Benefits .............................                                         9



 Appendices
   A       Agency Response to Draft Report and OIG Comment ...................................                                     10

   B       Distribution .......................................................................................................    16
Purpose
            The purpose of this report was to determine the use of procedures by the
            U.S. Environmental Protection Agency (EPA), other federal agencies and states to
            manage the communication of and appropriate action on laboratory data
            determined to be fraudulent.

Background

            The EPA relies on external laboratories to provide environmental testing data and
            results. Fraudulent practices in environmental testing laboratories can have serious
            consequences. For example, Intertek Testing Services was fined $9 million for
            falsifying test results of environmental tests. Intertek conducted environmental
            sample analysis, primarily as a subcontractor, for environmental consulting firms
            and federal, state and local governments nationwide. The tests were used for
            decision making at Superfund and hazardous waste sites to determine site safety
            and to monitor the migration of hazardous wastes, including cancer-causing
            petrochemicals. Intertek billed for $35.7 million in tests between 1994 and 1997.
            During that time, the laboratory handled as many as 250,000 environmental
            samples from 59,000 polluted sites across the country. Falsifying test results
            related to potential routes of human exposure can create risk of serious medical
            problems, including increased risk of cancer.

            The EPA defines laboratory fraud as “the deliberate falsification of analytical and
            quality assurance results.” A number of laboratory practices may constitute fraud,
            including:

                  Fabricating data.
                  Intentionally calibrating equipment using other than accepted procedures.
                  Modifying samples to alter characteristics.
                  Manipulating analytical results.
                  Substituting samples, files or data.

            The consequences and impacts of fraudulent data for the EPA can include:
            (1) a decline in public confidence in the EPA, (2) consumption of the EPA’s
            limited government resources by revisiting decisions made based on fraudulent
            data and determining appropriate corrective action, and (3) delays in executing
            response actions or cleanups while laboratory data is reviewed. From an
            environmental and human health protection perspective, the most serious
            consequence of laboratory fraud is the possibility that false negatives were
            reported. A false negative occurs when a laboratory reports that certain potentially
            hazardous compounds were not present when they were present.




14-P-0270                                                                                      1
Responsible Offices
                 The EPA’s Office of Environmental Information (OEI) manages the agency’s
                 Quality Management Program. This is the EPA program to ensure quality data
                 and provide management controls to guard against the use of poor or low quality
                 data in EPA decisions. This program develops agencywide policies, procedures
                 and tools for quality-related activities involving the collection and use of
                 environmental information. OEI also oversees the implementation of quality
                 systems by the agency.

                 The two organizations responsible for investigating laboratory fraud cases within
                 the EPA are the Office of Enforcement and Compliance Assurance’s (OECA’s)
                 Office of Criminal Enforcement, Forensics, and Training (OCEFT) and the Office
                 of Inspector General’s (OIG’s) Office of Investigations (OI).1 OCEFT
                 investigates criminal violations of the EPA’s pollution control requirements. OIG
                 Special Agents conduct investigations of allegations of fraud, waste and abuse by
                 EPA employees or recipients of federal funds or other benefits related to the
                 EPA’s programs.

                 The EPA’s Office of Solid Waste and Emergency Response (OSWER), through
                 its Office of Superfund Remediation and Technology Innovation, manages and
                 supports the Contract Laboratory Program (CLP). The CLP is a national network
                 of EPA personnel, commercial laboratories and support contractors whose
                 fundamental mission is to provide data of known and documented quality. The
                 CLP supports the EPA’s Superfund program.

Prior Reports
                 EPA OIG Report No. 2006-P-00036, Promising Techniques Identified to Improve
                 Drinking Water Laboratory Integrity and Reduce Public Health Risks, issued
                 September 21, 2006, found that in situations where inappropriate or fraudulent
                 procedures were detected, the EPA lacked standardized methods and guidance on
                 how the affected data would be handled. The report concluded that while OEI had
                 developed training to deter and detect improper laboratory practices, fraud
                 detection and reporting were outside the scope of the existing Quality System
                 Policy. The report recommended that OEI develop agencywide policy on how data
                 originating from laboratories under investigation, indictment and/or conviction
                 would be handled. The agency agreed with our recommendation and issued the
                 Chief Information Officer (CIO) 2106 Quality Policy and Procedure2 in 2008.




1
  A Memorandum of Understanding was signed in 2006 by OECA and OIG which identifies and defines each
office’s respective areas of investigative responsibilities.
2
  OEI issued CIO 2106.0, Quality Policy, and its supporting CIO 2106-P-01.0, Procedure for Quality Policy.


14-P-0270                                                                                                    2
Scope and Methodology
            We performed our evaluation from August 2012 to February 2014 in accordance
            with generally accepted government auditing standards. Those standards require
            that we plan and perform the evaluation to obtain sufficient and appropriate
            evidence. Further, this evidence must provide a reasonable basis for our findings
            and conclusions. The evidence obtained during this evaluation provides a
            reasonable basis for our findings and conclusions based upon our objective.

            To address our objective, we reviewed and analyzed relevant agency policy,
            procedure and guidance documents. We interviewed program directors and staff
            from OEI; OCEFT; OSWER; and the OIG’s OI. We also interviewed former
            members of OECA’s laboratory fraud workgroup and a retired OEI Director.
            Further, we interviewed quality control managers from EPA Regions 2, 9 and 10.

            We reviewed laboratory fraud cases from both the OIG’s OI and OECA’s OCEFT.
            We selected a sample of OCEFT and OI cases closed during the last 5 years that
            involved laboratories and data associated with EPA programs delegated to the
            states and a municipality. For each case, we reviewed the investigative
            documentation provided by OCEFT and OI and then interviewed related
            individuals to obtain insight into any follow-up actions associated with the case.
            The states we contacted in the case reviews included Arizona, Colorado, Idaho,
            Indiana, Michigan, Oregon, and Washington. We also contacted the municipality of
            New York City.

            We surveyed all 10 EPA regions to request information on any follow-up or due
            diligence activities the offices take upon discovering fraudulent laboratory data.
            Where needed, we conducted follow-up interviews based on survey responses.

            For comparative purposes and possible best practices, we also reviewed guidance,
            policies and procedures used by other federal agencies for any follow-up or due
            diligence activities the agencies take upon discovering fraudulent laboratory data.
            We interviewed staff from the U.S. Occupational Safety and Health Administration;
            U.S. Department of Agriculture; U.S. Department of Energy; U.S. Department of
            Health and Human Services; U.S. Department of Housing and Urban Development;
            and the U.S. Department of Defense’ Army Corps of Engineers, Naval Sea Systems
            Command and Air Force Civil Engineer Center.

            Throughout this report we refer to the laboratory fraud due diligence process. For
            the purposes of this evaluation, we define a laboratory fraud due diligence process
            as including all of the following elements: (1) the communication of laboratory
            fraud information between enforcement and program offices and data users, (2) the
            review and/or assessment of fraudulent laboratory data to determine its impact on
            human health and the environment, and (3) the review and/or amendment of past
            environmental decisions predicated on fraudulent laboratory data.




14-P-0270                                                                                        3
Results of Review

                The EPA lacks a due diligence process for potential fraudulent environmental
                data. Although the EPA has three instruments that address how to respond to
                instances of fraudulent data,3 each instrument is out of date or unimplemented.
                Our survey of EPA regional staff on their knowledge and use of the EPA’s
                fraudulent data policies and procedures found that a majority of respondents were
                unaware there was a policy, and approximately 50 percent expressed the need for
                such policies and procedures. The EPA plans to issue revised policy by fiscal year
                2017. Until then, unimplemented and out-of-date policies and guidance—as well
                as a lack of EPA staff awareness of those policies that do exist—create risk that
                EPA staff will fail to communicate the information regarding fraudulent data to
                appropriate program offices and data users; review and analyze the data for
                potential impacts to human health and the environment; or review and amend, if
                necessary, past environmental decisions that were based on fraudulent data.

                The federal agencies and states we contacted in this evaluation also do not have
                formal due diligence processes, according to their representative staff. Most of the
                federal agencies and states we contacted described quality assurance programs;
                however, the agencies and states did not have written policies or procedures for
                due diligence after the determination of fraudulent laboratory data. The states
                generally conducted laboratory fraud due diligence using a case-by-case (ad-hoc)
                approach.

                Further, the EPA does not consistently notify states when laboratory due diligence
                activities can begin during or following a fraud investigation that affects state
                environmental programs. The agency does not have a policy on communicating
                case information with the states and other regulating parties during investigations,
                due to the sensitive nature of investigations which could be jeopardized, and
                because rights of innocents could be threatened, and suspects could be unfairly
                maligned in an ongoing fraud investigation. As a result, laboratory fraud cases
                may not include a due diligence review. In such cases, potentially negative
                impacts to human health and the environment due to fraudulent lab data could go
                undetected.

                EPA’s Existing Laboratory Fraud Due Diligence Policies or Guidance
                Are Outdated or Unimplemented

                The EPA has not fully implemented existing laboratory fraud due diligence
                policies for programs in which the EPA has oversight responsibility, as well as for
                programs delegated to the states. As such, the EPA cannot ensure that the
                following are undertaken: (1) the communication of laboratory fraud information
                among enforcement and program offices and to data users, (2) the review and/or
                assessment of fraudulent laboratory data to determine its impact on human health
3
  OSWER Contract Laboratory Program’s Roles and Responsibilities Guidance Document (2007); OEI’s Procedure
for Quality Policy (2008); and the OECA OCEFT’s Laboratory Fraud Workgroup Report (2002).


14-P-0270                                                                                                4
                 and the environment, and (3) the review and/or amendment of past environmental
                 decisions predicated on fraudulent laboratory data.

                      EPA Contract Laboratory Program’s Due Diligence Process Outdated

                      The CLP’s4 due diligence directive Roles and Responsibilities Guidance
                      Document is outdated, according to the CLP branch chief. This guidance
                      provides details regarding reporting requirements for any suspicion of fraud,
                      waste or abuse involving a CLP laboratory, as well as actions to be taken by
                      CLP staff during an OIG lab fraud investigation. For example, when a CLP
                      lab is suspected of fraud, OSWER CLP staff should be notified. OSWER’s
                      CLP then notifies relevant parties, stops sample shipments and/or conducts
                      additional audits as appropriate. OSWER is in the process of revising this
                      guidance because it does not accurately reflect current business processes,
                      such as the computer automation of reports and compliance checks. In
                      addition, these revisions will help the document to be more streamlined,
                      readable and user friendly.

                      OEI’s Quality Procedure for Questionable Data Never Implemented

                      The agency issued CIO 2106—its Quality Policy and Procedure—in 2008.
                      CIO 2106 applies to all EPA programs. CIO 2106 establishes a required
                      response/notification process5 when the agency has data quality concerns,
                      including fraudulent laboratory data. This process includes notification to
                      senior agency officials6 and use of program or regional office procedures to
                      conduct management reviews of quality issues.

                      OEI’s Director for Quality Staff stated the agency did not fully implement
                      CIO 2106. Rather, current OEI management encourages the use of the 2000
                      CIO 2105.0 Quality Policy and Procedure (referred to here as CIO 2105).
                      However, the CIO 2105 quality documents do not describe the
                      notification/follow-up process detailed in the CIO 2106 Quality Policy and
                      Procedure. OEI plans to revise CIO 2106 to incorporate portions of CIO
                      Policy 2105 and issue the revised CIO Policy by fiscal year 2017. As a result,
                      the EPA currently has no final or interim agencywide follow-up procedures to
                      address fraudulent laboratory data.



4
  The CLP supports the EPA’s Superfund program, created under the 1980 Comprehensive Environmental Response,
Compensation and Liability Act and amended by the 1986 Superfund Amendments and Reauthorization Act.
5
  The notification process was included in response to the 2006 OIG report, 2006-P-00036, which recommended a
need for agency policy to address fraudulent data.
6
  This notification should include a description of the issue or problem, the name of the entity that produced the
product, and timeframe of when the product was received by the agency. This procedure further requires each
program or regional office to have procedures to review products to determine (1) the extent of any potential impact
to the agency should the product be used, and (2) any remediation steps to be taken to address concerns raised with
the continued use of the product.


14-P-0270                                                                                                         5
                      OECA’s Laboratory Fraud Workgroup’s Due Diligence Process
                      Not Developed into Policy or Guidance

                      In 2001, OCEFT issued a laboratory fraud workgroup report acknowledging
                      an increasing trend of laboratory fraud cases at that time. The workgroup7
                      evaluated the extent of laboratory fraud in environmental regulatory programs
                      and made recommendations to improve internal EPA controls to detect fraud
                      in laboratories performing analysis for the agency. The report detailed a
                      laboratory fraud due diligence process, to include: (1) the creation of
                      coordinating committees composed of OECA and program office staff to
                      identify impacted EPA regions and to share information about fraudulent data,
                      and (2) the regional program office roles in reviewing data for health and
                      safety issues and communicating such information to all impacted parties.
                      The workgroup report and the due diligence process was issued as a
                      “practical resource” but was not developed into official policy or guidance.

                 EPA Lacks Policy for Notifying the States When Due Diligence
                 Can Begin as a Result of Laboratory Fraud Investigations

                 We reviewed eight state laboratory fraud cases8 and found that the EPA did not
                 consistently notify the states when laboratory fraud due diligence could be
                 initiated when an investigation is either underway or completed. The agency lacks
                 policy on communicating case information with the states and other regulating
                 parties during investigations. Due to the sensitive nature of OECA OCEFT and
                 OIG OI investigations, one of the states that we interviewed waits for a “green
                 light” from the enforcement offices to conduct follow-up or due diligence work.
                 Another state took immediate action. One other state reported that it was not
                 notified of the investigation by the enforcement offices. OCEFT staff stated that
                 with ongoing investigations, OCEFT does not alert relevant regulating parties of
                 case-related information. This is because the investigation could be jeopardized,
                 the constitutional rights of innocents could be threatened, and suspects could be
                 unfairly maligned before there is proof of illegal activity. When cases are closed,
                 OCEFT does not communicate directly to regulating officials for follow-up
                 purposes and relies on publicizing case results to alert regulators.

                 There is potential for laboratory fraud cases to not include a due diligence review.
                 If states/municipalities received no response from the enforcement offices, they
                 may not be conducting laboratory fraud due diligence efforts. In these cases,
                 potentially negative consequences for human health and environmental protection
                 may be not be communicated or addressed.



7
  For this effort, OCEFT assembled a workgroup comprised of forensic scientists, criminal and civil investigators,
and attorneys from both the EPA and the U.S. Department of Justice.
8
  Four cases involved drinking or waste water programs, one case involved asbestos, one case involved air pollution,
one case involved lead paint, and one case involved soil testing.


14-P-0270                                                                                                          6
Conclusions
            The EPA has not fully implemented its existing policy and guidance on laboratory
            fraud due diligence and most regional officials surveyed were unaware there was
            a policy. Other existing guidance is out of date. In our opinion, the EPA has weak
            management controls for identifying parties responsible for responding to
            occurrences of fraudulent laboratory data and cannot ensure that due diligence
            efforts are taking place. The EPA took important steps more than a decade ago to
            address this by issuing its 2001 laboratory fraud workgroup report and, more
            recently, with its 2007 CLP guidance and 2008 Quality Policy and Procedure.
            However, no due diligence policy was created from the workgroup report, the
            CLP guidance section on this issue needs updating, and the quality policy has not
            been implemented. Given the EPA’s reliance on laboratory data and the potential
            human health and environmental impacts of fraudulent data going unaddressed,
            the EPA should take steps to strengthen program controls and processes.

Recommendations
            We recommend that the Assistant Administrator for Environmental Information:

               1. Incorporate a “Notification Process” similar to that found in CIO
                  Procedure 2106 into CIO Procedure 2105 until the revised CIO Policy
                  2106 is reissued.

               2. Include in the revised CIO Procedure 2106 specific due diligence steps for
                  laboratory fraud that provide procedural details on communication and
                  coordination efforts between program and enforcement staff, review and
                  analysis of data for any impacts to human health and the environment,
                  communication of any impact information to data users, and amendment
                  of past environmental decisions impacted by fraudulent data.

               3. Provide training on the “Notification Process” and the revised CIO
                  Procedure 2106 to the EPA staff working with laboratory data.

            We recommend that the Assistant Administrator for Enforcement and Compliance
            Assurance:

               4. Develop guidelines outlining response steps when fraudulent laboratory
                  data is discovered in ongoing criminal investigations.

            We recommend that the Assistant Administrator for Solid Waste and Emergency
            Response:

               5. Update the CLP Roles and Regulations Guidance Document.




14-P-0270                                                                                    7
               6. Provide training to CLP staff on the updated CLP Roles and Regulations
                  Guidance Document.

Agency Comments and OIG Evaluation
            The agency concurred with our findings and recommendations, and provided
            corrective actions and estimated completion dates that meet the intent of the
            recommendations. The recommendations are considered resolved and open with
            corrective actions ongoing. No further response to this report is required. The
            agency’s detailed response is provided in appendix A. Our response to the agency
            is embedded in appendix A. The agency also provided technical comments on the
            draft report, which we have incorporated into our report as appropriate.




14-P-0270                                                                                  8
                                Status of Recommendations and
                                  Potential Monetary Benefits

                                                                                                                                 POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                                BENEFITS (in $000s)

                                                                                                                     Planned
    Rec.    Page                                                                                                    Completion   Claimed    Agreed-To
    No.      No.                         Subject                           Status1         Action Official             Date      Amount      Amount

     1        7    Incorporate a “Notification Process” similar to that      O        Assistant Administrator for    12/31/17
                   found in CIO Procedure 2106 into CIO Procedure                     Environmental Information
                   2105 until the revised CIO Policy 2106 is reissued.

     2        7    Include in the revised CIO Procedure 2106 specific        O        Assistant Administrator for    12/31/17
                   due diligence steps for laboratory fraud that provide              Environmental Information
                   procedural details on communication and
                   coordination efforts between program and
                   enforcement staff, review and analysis of data for
                   any impacts to human health and the environment,
                   communication of any impact information to data
                   users, and amendment of past environmental
                   decisions impacted by fraudulent data.

     3        7    Provide training on the “Notification Process” and        O        Assistant Administrator for    3/31/17
                   the revised CIO Procedure 2106 to the EPA staff                    Environmental Information
                   working with laboratory data.

     4        7    Develop guidelines outlining response steps when          O        Assistant Administrator for    9/30/14
                   fraudulent laboratory data is discovered in ongoing                    Enforcement and
                   criminal investigations.                                            Compliance Assurance

     5        7    Update the CLP Roles and Regulations Guidance             O        Assistant Administrator for    12/31/15
                   Document.                                                         Solid Waste and Emergency
                                                                                              Response

     6        8    Provide training to CLP staff on the updated              O        Assistant Administrator for    12/31/15
                   CLP Roles and Regulations Guidance Document.                      Solid Waste and Emergency
                                                                                              Response




1   O = recommendation is open with agreed-to corrective actions pending
    C = recommendation is closed with all agreed-to actions completed
    U = recommendation is unresolved with resolution efforts in progress




14-P-0270                                                                                                                                           9
                                                                                  Appendix A

                  Agency Response to Draft Report
                        and OIG Comment
                                          April 1, 2014
MEMORANDUM

SUBJECT:      Response to Office of Inspector General Draft Report No. OPE-FY12-0023:
              “EPA Has Not Fully Implemented Management Procedures to Address for
              Fraudulent Environmental Data,” dated February 18, 2014

FROM:         Renee Wynn /s/
              Acting Assistant Administrator
              and Chief Information Officer
              Office of Environmental Information

              Cynthia Giles /s/
              Assistant Administrator
              Office of Enforcement and Compliance Assurance

              Mathy Stanislaus /s/
              Assistant Administrator
              Office of Solid Waste and Emergency Response

TO:           Arthur A. Elkins, Jr.
              Inspector General


Thank you for the opportunity to respond to the issues and recommendations in the subject audit
report. Following is a summary of the agency’s overall position, along with its position on each
of the report recommendations. For those report recommendations with which the agency agrees,
we have provided either high-level intended corrective actions and estimated completion dates to
the extent we can or reasons why we are unable to provide high-level intended corrective actions
and estimated completion dates at this time.

AGENCY’S OVERALL POSITION

Office of Environmental Information (OEI)

The Office of Environmental Information (OEI) proposes that the title of the report be modified
to reflect that no actual fraud was found or identified in the report and recommendations. Upon
reflection, OEI believes that the title of the report is misleading and should be modified. OEI
proposes the following title for this report, “EPA Has Not Implemented Adequate Management
Procedures to Address the Potential for Fraudulent Environmental Data.”




14-P-0270                                                                                     10
 OIG Response: The objective of this review was to determine the use of procedures by the
 EPA, other federal agencies and states to manage the communication of and appropriate
 action on laboratory data determined to be fraudulent—not to find fraudulent laboratory
 data. We discuss a prominent example of fraudulent laboratory data and were made aware
 of ongoing investigations of fraud. The OIG changed the final report title to reflect that EPA
 procedures need to address both suspected and confirmed fraudulent data.

OEI concurs with Recommendation 1 to “Incorporate a notification process similar to that found
in CIO Policy 2106 into CIO Policy 2105 until a revised CIO Policy 2106 is reissued.” It is
important to clarify that the notification process is found in the CIO Procedure 2106, not CIO
Policy 2106.

 OIG Response: The OIG revised the final report as suggested.

OEI plans to revise the CIO Quality Procedure to include the notification process found in CIO
Procedure 2106.

 OIG Response: The OIG met with the agency to discuss the draft findings and
 recommendations. Based on discussions with the agency, it was agreed that the corrective
 action to remedy recommendation 1 would also include the following: “in the interim before
 new policy is published in FY 2017, immediately direct the Regions and requisite Offices to
 implement Section G, Notification Process, of CIO 2106-P-01.0, dated 10-20-08, as
 necessary.” The agency’s corrective actions address the intent of the recommendation.
 Therefore, this recommendation to be resolved.

OEI concurs with Recommendation 2 to “Include in the revised CIO Policy 2106, specific due
diligence steps for laboratory fraud that provide procedural details on communication and
coordination efforts between program and enforcement staff, review and analysis of data for any
impacts to human health and the environment, communication of any impact information to data
users, and amendment of past environmental decisions impacted by fraudulent data.” OEI plans
to include specific due diligence steps for laboratory fraud in the revised CIO Quality Procedure.

 OIG Response: We concur with the corrective action provided by the agency. This
 recommendation is resolved.

OEI concurs with Recommendation 3 to “Provide training on the Notification Process and the
revised CIO Policy 2106 to the EPA staff working with laboratory data.” OEI will provide this
training after the revised Quality Procedure is issued.

 OIG Response: We concur with the corrective action provided by the agency. This
 recommendation is resolved.

Additionally, OEI is providing technical comments on this report as part of the attachment.




14-P-0270                                                                                         11
The Office of Enforcement and Compliance Assurance (OECA)

OECA concurs with Recommendation 4 to “Develop guidelines outlining response steps when
fraudulent laboratory data is discovered in ongoing criminal investigations.”

 OIG Response: We concur with the corrective action provided by the agency. This
 recommendation is resolved.

It is important to clarify that lack of such guidelines does not impede OECA’s ability to identify
and investigate fraudulent laboratory data nor analyze that data for impacts to human health and
the environment, as distinguished from how that information is shared with the end users of
potentially fraudulent data.

 OIG Response: The OIG revised the final report to incorporate this comment.


Additionally, OECA is providing technical comments on this report as part of the attachment.


Office of Solid Waste and Emergency Response (OSWER)

OSWER concurs with Recommendation 5 to “Update the Contract Laboratory Program’s (CLP)
Roles and Regulations Guidance Documents” and that the May 2007 CLP’s Roles and
Responsibilities Guidance Document requires updating to better reflect current business practices
and process flows, including Section 5.8 Investigating Possible Inappropriate CLP Laboratory
Practices.

 OIG Response: We concur with the corrective action provided by the agency. This
 recommendation is resolved.

OSWER concurs with Recommendation 6 to “Provide training to CLP staff on the updated CLP
Roles and Regulations Guidance Document” and intends to provide training to CLP staff on the
updated CLP Roles and Responsibilities Guidance Document.

 OIG Response: We concur with the corrective action provided by the agency. This
 recommendation is resolved.

If you have any questions regarding OEI’s response, please contact Scott Dockum, OEI Audit
Follow-Up Manager at 202-566-1914. For OECA’s response, please contract Gwendolyn
Spriggs, OECA Audit Follow-Up Coordinator at 202-564-2439. For OSWER’s response, please
contact Melanie Hoff, Branch Chief, Analytical Services Branch, Office of Superfund
Remediation and Technology Innovation at 703-603-8808.

Attachment




14-P-0270                                                                                        12
cc:   Scott Dockum
      Gwendolyn Spriggs
      Melanie Hoff
      Johnsie Webster
      Jeffrey K. Harris




14-P-0270                 13
AGENCY’S RESPONSE TO REPORT RECOMMENDATIONS

Agreements
  No.               Recommendation                High-Level Intended           Estimated
                                                  Corrective Action(s)        Completion by
                                                                              Quarter and FY



    1       Incorporate a “Notification           OEI will issue a          1st Quarter FY 2017
            Process” similar to that found in     revised CIO Quality
            CIO Policy 2106 into CIO Policy       Procedure and will
            2105 until the revised CIO Policy     ensure the notification
            2106 is reissued.                     process is included.

                                                  [Revision provided by     June 30, 2014
                                                  OEI on April 15,
                                                  2014] In the interim
                                                  before new policy is
                                                  published in FY 2017,
                                                  OEI will direct the
                                                  Regions and requisite
                                                  Offices to implement
                                                  Section G,
                                                  Notification Process,
                                                  of CIO 2106-P-01.0,
                                                  dated 10-20-08, as
                                                  necessary.




    2       Include in the revised CIO Policy     OEI will include          1st Quarter FY 2017
            2106, specific due diligence steps    specific due diligence
            for laboratory fraud that provide     steps for laboratory
            procedural details on                 fraud in the revised
            communication and coordination        CIO Quality
            efforts between program and           Procedure.
            enforcement staff, review and
            analysis of data for any impacts to
            human health and the environment,
            communication of any impact
            information to data users, and
            amendment of past environmental
            decisions impacted by fraudulent
            data.



14-P-0270                                                                                         14
    3       Provide training on the Notification   OEI will provide this   2nd Quarter FY 2017
            Process and the revised CIO Policy     training after the
            2106 to the EPA staff working with     revised CIO Quality
            laboratory data.                       Procedure is issued.


    4       Develop guidelines outlining           OECA will develop       4th Quarter FY 2014
            response steps when fraudulent         guidelines outlining
            laboratory data is discovered in       response steps when
            ongoing criminal investigations.       fraudulent laboratory
                                                   data is discovered in
                                                   ongoing criminal
                                                   investigations.


    5       Update the CLP Roles and               OSWER concurs with 1st Quarter FY 2015
            Regulations Guidance Document.         the recommendation
                                                   and will update the
                                                   CLP Roles and
                                                   Regulations
                                                   Document.
    6       Provide training to CLP staff on the   OSWER concurs with 1st Quarter FY 2015
            updated CLP Roles and                  the recommendation
            Regulations Guidance Document.         and will provide
                                                   training to CLP staff
                                                   on the updated CLP
                                                   Roles and Regulations
                                                   Document.




14-P-0270                                                                                    15
                                                                                Appendix B

                                     Distribution
Office of the Administrator
Assistant Administrator for Environmental Information and Chief Information Officer
Assistant Administrator for Enforcement and Compliance Assurance
Assistant Administrator for Solid Waste and Emergency Response
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Principal Deputy Assistant Administrator Environmental Information
Principal Deputy Assistant Administrator for Enforcement and Compliance Assurance
Deputy Assistant Administrator for Solid Waste and Emergency Response
Audit Follow-Up Coordinator, Office of Environmental Information
Audit Follow-Up Coordinator, Office of Enforcement and Compliance Assurance
Audit Follow-Up Coordinator, Office of Solid Waste and Emergency Response




14-P-0270                                                                               16
